                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                    ~OFFICE OF INVESTIGATIONS


                                              CLOSEOUT MEMORANDUM

 Case Number: A09100079                                                                      Page 1 of 1



          The complainant l alleged that the subject2 copied text from the complainant's work3 into the
          subject's NSF proposa1. 4 A review of the subject's NSF proposal determined that the alleged
          copied text originated from documents 5 jointly authored by the complainant and the subject. We
          consider text jointly authored to be permissible for use by any of the individual authors in other
          works. Therefore, we concluded that no plagiarism was committed.

          Accordingly, this case is closed.




          2


          4




NSF OIG ,Fonn 2 (11102)
